HHS/OIG, Audit - "Review of the Relationship Between Medicare Part D
Payments to Local, Community Pharmacies and the Pharmacies Drug Acquisition
Costs," (A-06-07-00107)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of the Relationship Between Medicare Part D Payments to Local, Community
Pharmacies and the Pharmacies Drug Acquisition Costs," (A-06-07-00107)
January 3, 2008
Complete
Text of Report is available in PDF format (971 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We conducted this review at the request of 33 Senators.
Medicare Part D payments, excluding dispensing fees, to local, community
pharmacies exceeded the pharmacies drug acquisition costs by an estimated 18.1
percent when the analysis included rebates that drug wholesalers paid to
pharmacies.  Excluding rebates, Part D payments exceeded drug acquisition costs
by an estimated 17.3 percent.  The estimated difference between Part D payments
and drug acquisition costs was $9.13 per prescription including rebates and
$8.78 excluding rebates.
The estimated average Medicare Part D dispensing fee paid to local, community
pharmacies was $2.27 per prescription, about $2 less than the average Medicaid
dispensing fee.  We recommended that Congress and CMS consider the results of
our review, including the data provided, in any deliberations regarding Medicare
Part D reimbursement.  CMS concurred with the recommendation.